               Department of Veterans Affairs
               Office of Inspector General



                   Office of Healthcare Inspections

Report No. 13-00133-12



              Healthcare Inspection 


Alleged Improper Opioid Prescription 

         Renewal Practices 

  San Francisco VA Medical Center 

      San Francisco, California 





November 7, 2013

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
      Alleged Improper Opioid Prescription Renewal Practices, San Francisco VAMC, San Francisco, CA



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to complaints concerning improper opioid prescription renewal
practices in the Medical Practice Clinic at the San Francisco VA Medical Center
(facility), San Francisco, CA. We reviewed the following allegations: (1) attendings on-
duty are tasked with evaluating numerous opioid renewal requests for patients with
whom they are unfamiliar, (2) providers do not routinely document patients’ opioid
prescription renewal problems in the electronic health record, and (3) there have been
patient hospitalizations and deaths related to opioid misuse.

We substantiated that attendings on-duty are tasked with evaluating numerous opioid
renewal requests for patients with whom they are unfamiliar; however, Veterans Health
Administration regulations and local policy do not prohibit such practice.

We partially substantiated that providers do not routinely document patients’ opioid
prescription renewal problems in the electronic health record. The providers did not
consistently document an assessment for adherence with appropriate use of opioids
and monitor patients for misuse, abuse, or addiction. The primary care providers did
not consistently complete the templated Narcotic Instructions Note for patients with
opioid prescription renewal problems.

We partially substantiated that there have been hospitalizations and deaths of patients
related to opioid misuse. Seven patients were hospitalized for opioid overdose;
however, the primary care provider, Psychiatry Service, and/or the facility’s Substance
Abuse Program assessed and appropriately monitored the patients for misuse. There
were no deaths related to opioid overdose.

We recommended that the Facility Director (1) ensure that providers comply with all
elements of the management of opioid therapy for chronic pain, as required by Veterans
Health Administration and the VA/DoD Clinical Practice Guideline for Management of
Opioid Therapy for Chronic Pain, and (2) ensure that the Narcotic Instructions Note is
reevaluated for appropriate use in the Medical Practice Clinic and that providers comply
with established protocol.

The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 6–9 for the Director’s comments.) We will follow up on the planned actions until
they are completed.




                                                           JOHN D. DAIGH, JR., M.D.
                                                          Assistant Inspector General for
                                                            Healthcare Inspections


VA Office of Inspector General                                                                    i
       Alleged Improper Opioid Prescription Renewal Practices, San Francisco VAMC, San Francisco, CA



                                                  Purpose 

At the request of Senator Patty Murray, former Chairperson of the Senate Committee on
Veterans’ Affairs, the VA Office of Inspector General (OIG) Office of Healthcare
Inspections conducted an inspection to assess the merit of allegations made by a
complainant concerning improper opioid prescription renewal practices in the Medical
Practice Clinic (clinic) at the San Francisco VA Medical Center (facility) in San
Francisco, CA.

                                             Background 


The facility, part of Veterans Integrated Service Network (VISN) 21, is a tertiary care
facility that delivers comprehensive medical care for veterans throughout Northern
California. It has 104 operating beds and provides services in primary care, surgery,
pain management, mental health, rehabilitation, and other specialties.

The clinic serves approximately 10,000 patients and is staffed with 10 nurse
practitioners and 30 primary care physicians. All of the primary care physicians are
part-time in the clinic, with hours ranging from 2 to 20 per week. The clinic also has
physician attendings on-duty1 (AODs) which includes primary care physicians,
internists, and geriatricians. The AODs’ responsibilities include supervising resident
physicians, other clinicians, and ancillary staff; reviewing cases and co-signing medical
records; addressing time sensitive test results; and evaluating requests for medication
renewals when the ordering provider is unavailable. The clinic schedules one to four
AODs per half-day clinic.2 The 28 AODs have varying on-duty schedules from
2 half-days per week to 1 half-day per month.

Allegations
In October 2012, the OIG’s Hotline Division contacted the complainant to follow up on
the allegations made. According to the complainant, the clinic’s opioid prescription
renewal practices were “less than ideal,” and the AODs had problems adequately
evaluating patients with opioid prescription renewal requests.      Specifically, the
complainant alleged the following:

    	 AODs are tasked with evaluating numerous opioid renewal requests for patients
       with whom they are unfamiliar.

    	 Providers do not routinely document patients’ opioid prescription renewal
       problems in the electronic health record (EHR).

    	 There have been hospitalizations and deaths of patients related to opioid misuse.
1
  The clinic uses the term preceptor; however, in our interviews, the staff referred to this position as the attending 

on-duty.

2
  The clinic divides each clinic day into two half-day clinics, with each half-day consisting of a 4-hour period. 



VA Office of Inspector General                                                                                       1
         Alleged Improper Opioid Prescription Renewal Practices, San Francisco VAMC, San Francisco, CA



                                 Scope and Methodology 

We conducted telephone interviews with the complainant in October 2012. We visited
the facility the week of December 10, 2012, and interviewed facility leadership, 12
AODs, and other clinical staff. We reviewed Veterans Health Administration (VHA) and
local policies governing pain management and prescribing practices, the VA/DoD
Clinical Practice Guideline for Management of Opioid Therapy for Chronic Pain3
(VA/DoD Guideline), and medical literature. For fiscal year 2012, we reviewed the
EHRs of 20 clinic patients who received chronic opioid therapy and the EHRs of all
clinic patients with a discharge diagnosis related to opioid overdose. We identified the
patients for our EHR review from the VHA Corporate Data Warehouse. We also
reviewed the EHRs of 11 clinic patients named by the complainant.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.

                                      Inspection Results 

Inspection Results
Issue 1: Opioid Prescription Renewal Process

We substantiated the allegation that AODs are tasked with evaluating numerous opioid
renewal requests for patients with whom they are unfamiliar.

VHA policy requires that certain opioid prescriptions are restricted to a 30-day supply
with no refills requiring patients to obtain a new or renewal prescription every month.4
During the course of our inspection, we found that all clinic physicians were part-time;
therefore, patients requiring opioid prescription renewals every 30 days could be
subjected to extended periods without their opioid medication(s). Senior leaders
reported that in an effort to avoid such situations, a prescription renewal process was
implemented for those instances when a patient requires a medication renewal but is
unable to schedule a timely encounter with his or her primary care provider (PCP). The
renewal process, established in 2006, assigned the AODs responsibility for evaluating
all medication renewal requests, including opioids. At that time, the facility hired clinical
pharmacists designated to screen all renewal requests prior to the AOD’s evaluation.

The AODs we interviewed validated the complainant’s allegation that within their
on-duty half-day clinics they evaluate multiple opioid renewal requests for patients
unknown to them. VHA policy, however, does not prohibit a provider from renewing an
opioid prescription for a patient he or she has not evaluated in person. In addition,
facility protocol requires a clinical pharmacist to screen every opioid renewal request of

3
    VA/DoD Clinical Practice Guideline for Management of Opioid Therapy for Chronic Pain, Version 2.0, 2010.
4
    VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 6, 2010.


VA Office of Inspector General                                                                                 2
      Alleged Improper Opioid Prescription Renewal Practices, San Francisco VAMC, San Francisco, CA


patients who call or present to the clinic without an appointment. The screen includes a
comprehensive review of the EHR for appropriate timing of prescription renewal and
adherence with medication and PCP visits prior to referring the request to the AOD.
The AOD performs a subsequent EHR review and based on clinical judgment, renews
the opioid prescription for 30 days, prescribes a limited quantity to “bridge” the patient
until the next PCP appointment, denies the request, or defers it to the patient’s PCP.

All AODs reported having knowledge of the option to deny opioid renewal requests and
defer them to the PCP, and none expressed any pressure from their colleagues to grant
renewal requests. In addition, it was the general consensus of the AODs that the
clinical pharmacist’s preliminary review of the EHR was extremely helpful.

Issue 2: Documentation of Adherence and Misuse, Abuse, or Addiction

We partially substantiated the allegation that providers do not routinely document
patients’ opioid prescription renewal problems in the EHR.

VHA policy requires that providers treating a patient with chronic pain must periodically
evaluate the patient’s adherence.5 VHA policy6 also calls for the use of published
clinical guidelines for pain management protocols, including the VA/DoD Guideline.7
The VA/DoD Guideline recommends that at every visit and for every telephone contact
requesting opioid prescription renewal, providers assess and document adherence with
appropriate use of opioids and any evidence of misuse, abuse, or addiction. The
VA/DoD Guideline also recommends random periodic urine drug tests to confirm
adherence.

We reviewed the EHRs of 31 patients on chronic opioid therapy, including the 11
patients the complainant identified, for evidence of a provider encounter that included
an appropriate assessment for all opioid prescription renewals. Of the 11 patients, one
did not have any opioids prescribed during the 12 months reviewed, and one was no
longer under the care of the clinic; therefore, those patients were not included in further
analysis. Of the remaining 29 patients’ EHRs, we found that 140 (53 percent) of the
264 opioid prescription renewals reviewed did not have any documentation of a provider
assessment. In the 124 encounters8 with a provider assessment, 10 encounters (8
percent) did not have documented evidence of an assessment for adherence with
appropriate use of opioids, and 23 (19 percent) encounters did not have documented
evidence of an assessment for misuse, abuse, or addiction. Additionally, 10 patients’
EHRs did not have documentation of a urine drug test.

We also found that the clinic uses a paper Prescription Request Form to communicate
the status of the renewal request among clinic staff; however, the form is shredded and
does not become a permanent part of the patient’s EHR.


5
  VHA Directive 2009-053, Pain Management, October 28, 2009.
6
  Ibid.
7
  VA/DoD Clinical Practice Guideline for Management of Opioid Therapy for Chronic Pain, Version 2.0, 2010
8
  An encounter includes both face-to-face visits and telephone contacts.


VA Office of Inspector General                                                                              3
      Alleged Improper Opioid Prescription Renewal Practices, San Francisco VAMC, San Francisco, CA


In addition, we reviewed the EHRs for the presence of a templated Narcotic Instructions
Note which the clinic implemented to provide AODs and other providers with guidance
regarding opioid prescription renewals. The PCP completes the note which addresses
the following parameters: (1) on time opioid prescription renewal by any provider, (2)
early opioid prescription renewal by any provider, (3) necessity and frequency of urine
drug tests prior to opioid prescription renewal, and (4) necessity and timeliness of an
appointment with PCP prior to opioid prescription renewal.

All of the AODs interviewed were familiar with the templated Narcotic Instructions Note.
Several of the AODs told us that the prevailing practice among the PCPs was to
complete the note only if the patient had opioid prescription renewal problems (non-
adherence to prescribed medication or misuse, abuse, or addiction), and that in the
absence of the note, the presumption was permissible opioid renewals.

Of the 29 patients’ EHRs reviewed, we found 22 (76 percent) that had evidence of
opioid prescription renewal problems. We found that 13 (59 percent) of the 22 did not
have the Narcotic Instructions Note.

Issue 3: Alleged Patient Deaths and Hospitalizations

We partially substantiated the allegation that there have been patient hospitalizations
and deaths related to opioid misuse.

We reviewed the EHRs of all clinic patients who were hospitalized for a drug overdose
and found seven that overdosed on an opioid. We found that three of the patients
attempted suicide with opioids, three patients took more than the prescribed dose of
opioid medications, and one patient took opioids with illicit drugs. We also found that
the Psychiatry Service and/or the facility’s Substance Abuse Program closely monitored
five of the seven patients, a PCP monitored one patient on a weekly basis, and one
patient was registered at the facility but had not established care with the clinic prior to
the overdose.

We did not find any deaths related to opioid overdose. The complainant provided the
name of one patient who was receiving chronic opioid therapy and apparently died at
another hospital. The facility reported that the patient’s cause of death was unknown;
therefore, we were not able to obtain any further information.

                                     Conclusions 

Although we substantiated the allegation that AODs are tasked with evaluating
numerous opioid renewal requests for patients with whom they are unfamiliar, VHA
policy does not prohibit such practice. The AODs could defer an opioid renewal request
to the PCP if uncomfortable renewing the prescription.

We partially substantiated the allegation that providers do not routinely document opioid
prescription renewal problems in the EHR. We determined that the providers did not
consistently document an assessment for adherence with appropriate use of opioids.


VA Office of Inspector General                                                                   4
      Alleged Improper Opioid Prescription Renewal Practices, San Francisco VAMC, San Francisco, CA


While we recognize that the clinical pharmacists perform a comprehensive review of the
EHR, VHA policy requires documentation of all elements of pain management including
adherence. In addition, we determined that the PCPs did not consistently monitor
patients for misuse. We did find that the facility had developed a templated Narcotic
Instructions Note for the PCPs to provide specific guidance for opioid renewals;
however, the PCPs did not consistently complete the note for patients with opioid
prescription renewal problems.

We partially substantiated the allegation that there have been patient hospitalizations
and deaths related to opioid misuse. Although we found seven patients that were
hospitalized for opioid overdose, we determined that the PCP, Psychiatry Service,
and/or the facility’s Substance Abuse Program assessed and appropriately monitored
the patients for misuse. We did not find any deaths related to opioid overdose.

                                 Recommendations 

1. We recommended that the Facility Director ensures that providers comply with all
elements of the management of chronic pain patients on opioid therapy, as required by
VHA and the VA/DoD Guideline.

2. We recommended that the Facility Director ensures that the Narcotic Instructions
Note is reevaluated for appropriate use in the clinic and that providers comply with
established protocol.




VA Office of Inspector General                                                                   5
      Alleged Improper Opioid Prescription Renewal Practices, San Francisco VAMC, San Francisco, CA
                                                                                       Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                    Memorandum


   Date:      September 24, 2013

  From:       VISN Director

   Subject: Healthcare Inspection – Alleged Improper Opioid
            Prescription Renewal Practices, San Francisco VAMC,
            San Francisco, CA

   To:         Director, San Diego Office of Healthcare Inspections (54SD)

              Director, Management Review Service (VHA 10AR MRS OIG
              Hotline)

              1. Attached 	is the action plan developed by the San
                 Francisco VAMC in response to the site review that
                 occurred in regards to the allegations of Improper Opioid
                 Prescription Renewal Practices.

              2. I am confident that their detailed plan will correct any
                 deficiencies noted and will improve the care provided to
                 the Veterans.

              3. If you have any questions please contact Terry Sanders,
                 Associate Quality Manager at (707) 562-8370.




                 Sheila M. Cullen
                 Attachments




VA Office of Inspector General                                                                   6
      Alleged Improper Opioid Prescription Renewal Practices, San Francisco VAMC, San Francisco, CA
                                                                                       Appendix B
                         Facility Director Comments


               Department of
               Veterans Affairs                                    Memorandum


    Date:       September 24, 2013

    From:       Facility Director

    Subject: Healthcare Inspection – Alleged Improper Opioid Prescription
             Renewal Practices, San Francisco VAMC, San Francisco, CA

    To:         Director, Sierra Pacific Network (10N21)

                1. I appreciate the opportunity to provide comments to the draft
                   report of the Healthcare Inspection on Alleged Improper
                   Opioid Renewal Practices at the San Francisco VA Medical
                   Center.

                2. 	 I concur with all of the findings and suggested improvement
                     actions.

                3. In closing,	 I would like to express my thanks to the OIG
                   review team whose members were professional, helpful, and
                   courteous.




               Bonnie S. Graham, MBA 

               Director, San Francisco VA Medical Center 





VA Office of Inspector General                                                                   7
      Alleged Improper Opioid Prescription Renewal Practices, San Francisco VAMC, San Francisco, CA



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendation in
the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Facility Director ensure providers
comply with all elements of the management of chronic pain patients on opioid therapy,
as required by VHA and the VA/DoD Clinical Guideline.

Concur

Target date for completion:

   1) 10/01/2013: PACT team primary assumption of opioid therapy renewal
   2) 12/31/2013: Education and process improvement changes

Facility response: As of 10/01/2013, San Francisco VA Medical Center (SFVAMC)
Medical Practice will discontinue the use of Attending on Duty coverage for routine
review and completion of opioid prescription urgent renewals (defined as patient same
day requests by telephone or walk in). The primary responsibility for review and
renewal of all opioid prescriptions (including urgent renewals) will be with the primary
care provider (PCP) and his/her Patient Aligned Care Team (PACT). The PACT teams
will include proactive opioid management in their regular huddles to reduce the need for
urgent renewals and utilize the opioid dashboard on a regular basis to identify patients
with higher risk for safe use of opioids and the need for urine drug testing. All primary
care PACT teams will be educated and actively use the opioid dashboard in their
huddles. Monitoring of the number of opioid urgent renewals will be reported to the
SFVAMC Leadership Board monthly starting in November 2013.

In addition, further education is planned for providers, clinic staff and patients on the
expectations of the elements of the management of chronic pain patients on opioid
therapy, as required by VHA and the VA/DoD Clinical Guideline and the facility is
participating as a pilot site for a new opioid decision support tool, ATHENA-OT, which
integrates the VA/DOD guidelines.             In addition, Pharmacy has completed
comprehensive Opioid Optimization Support Notes on all Medical Practice patients on
>200 mg/day of morphine equivalents, and is currently in the process of completing
comprehensive notes on all Medical Practice patients on >120 mg/day of morphine
equivalents which will be completed by the 12/1/2013. PCPs are required to place an
addendum to the pharmacy notes in the chart within 2 weeks to document their plan.
PCP completion of an appropriate Opioid Optimization Support Note addendum will be
monitored and reported to the SFVAMC Leadership Board monthly starting in
November 2013.




VA Office of Inspector General                                                                   8
      Alleged Improper Opioid Prescription Renewal Practices, San Francisco VAMC, San Francisco, CA


Recommendation 2. We recommended that the Facility Director ensures that the
Narcotic Instructions Note is reevaluated for appropriate use in the clinic and that
providers comply with established protocol.

Concur:

Target date for completion: 12/31/2013

Facility response: As part of the education and review efforts outlined above, the
Narcotic Instructions Note (NIN) will be reviewed and reevaluated for appropriate use by
the clinic. A protocol for NIN use in patients on >120 mg/day of morphine equivalents
will be developed and implemented. All Medical Practice patients on >120 mg/day of
morphine equivalents will have a NIN. Monitoring data on note compliance with the
requirement for a NIN will be reported to the SFVAMC Leadership Board monthly
starting in November 2013.




VA Office of Inspector General                                                                   9
      Alleged Improper Opioid Prescription Renewal Practices, San Francisco VAMC, San Francisco, CA
                                                                                       Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Josephine Biley Andrion, RN, MHA, Team Leader
                         Elizabeth Burns, MSSW
                         Matt Frazier, MPH, MBA
                         Monika Gottlieb, MD
                         Deborah Howard, RN, MSN
                         Sandra Khan, RN, BSN
                         Judy Montano, MS
                         Glen Pickens, RN, MHSM
                         Katrina Young, RN, MSHL
                         Cynthia Gallegos, Program Support Assistant 

                         Derrick Hudson, Program Support Assistant 





VA Office of Inspector General                                                                  10
      Alleged Improper Opioid Prescription Renewal Practices, San Francisco VAMC, San Francisco, CA
                                                                                       Appendix E

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General
Director, Sierra Counsel Pacific Network (10N21)
Director, San Francisco VA Medical Center (662/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Barbara Boxer, Dianne Feinstein
U.S. House of Representatives: John Garamendi, Mike Honda, Jared Huffman, Barbara
 Lee, Nancy Pelosi, Jackie Speier, Eric Swalwell, Mike Thompson



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                  11
